NO. 19-431
IN THE

Supreme Court of the United States
THE LITTLE SISTERS OF THE POOR
SAINTS PETER AND PAUL HOME,

v.

Petitioner,

THE COMMONWEALTH OF PENNSYLVANIA AND
THE STATE OF NEW JERSEY, ET AL.,

Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

BRIEF OF AMICI CURIAE
RESIDENTS AND FAMILIES OF RESIDENTS AT
HOMES OF THE LITTLE SISTERS OF THE POOR
IN SUPPORT OF PETITIONER
Dwight G. Duncan

Counsel of Record

Colbe Mazzarella
333 Faunce Corner Road
North Dartmouth, MA 02747-1252
(508) 985-1124
dduncan@umassd.edu
Dated: October 28, 2019
BATEMAN & SLADE, INC.

STONEHAM, MASSACHUSETTS

TABLE OF CONTENTS
TABLE OF AUTHORITIES ..................................... iii
INTEREST OF AMICI CURIAE ................................1
SUMMARY OF THE ARGUMENT ............................7
ARGUMENT ...............................................................7
I.

THE LITTLE SISTERS’
FAITHFUL EXERCISE OF
THEIR RELIGION HAS
PROVIDED AID AND
INSPIRATION TO THE POOR
ELDERLY, REGARDLESS OF
FAITH AFFILIATION, SINCE
1839. .......................................................7

II.

THE LITTLE SISTERS
PROVIDE A UNIQUE AND
IRREPLACEABLE SERVICE
THAT IS CHERISHED BY
RESIDENTS AND FAMILIES
OF RESIDENTS. .................................10

III.

THE LITTLE SISTERS’
DEVOTED CARE FOR POOR
RESIDENTS IS AN EXERCISE
OF THEIR RELIGION THAT
ENHANCES THE SERVICES
PROVIDED TO THE POOR
AND ELDERLY. ..................................11

i

IV.

THE LITTLE SISTERS
AUTHENTICALLY SERVE
EVERY PERSON AS AN
INDIVIDUAL WITHOUT
REGARD TO FAITH,
FINANCES, OR FRAILTY. .................14

V.

THE LITTLE SISTERS OFFER
A JOYFUL, SUPPORTIVE, AND
PEACEFUL ENVIRONMENT,
FROM THE DETAILS OF
DAILY LIVING TO THE FINAL
MOMENTS OF LIFE. .........................17

VI.

THE LITTLE SISTERS
FAITHFULLY SERVE PEOPLE
OF ALL RELIGIONS. .........................19

VII.

THE LITTLE SISTERS SERVE
PEOPLE WITHOUT REGARD
TO THEIR ABILITY TO PAY. ............19

CONCLUSION ..........................................................20

ii

TABLE OF AUTHORITIES
CASES:

Gonzales v. Carhart,

550 U.S. 124 (2007) ........................................11

Roper v. Simmons,

543 U.S. 551 (2005) ........................................11

OTHER AUTHORITIES:
Charles Dickens, The Little Sisters,
Household Words, Feb. 14, 1852

available at Dickens Journals Online,

http://www.djo.org.uk/householdwords/volume-iv/...............................................8
Paul Milcent, Jeanne Jugan: Humble So as to
Love More, 40 (Darton, Longman &
Todd, 2d ed., 2000) ...........................................7
“I’m an old Jewish Atheist,” Oliver Sacks, Web
of Stories, https://www.webofstories.
com/play/oliver.sacks/20 ...................................9
Oliver Sacks, On the Move: A Life 225 (Alfred
A. Knopf, 2015) ...........................................9, 10

iii

INTEREST OF AMICI CURIAE 1

Amici, who are listed and described below, are
residents and family members of residents in
nursing homes run by the Little Sisters of the Poor.
They attest to the unparalleled care that the Sisters
provide. The interest of amici residents is to protect
the home that they treasure so dearly. The interest
of amici family members is to protect their elderly
relatives, or the community where they devotedly
volunteer in memory of their deceased loved ones.
Amici strongly oppose punitive fines on the Sisters
who selflessly care for poor, aged residents. All
parties have consented to the filing of this amicus
brief.
Carl W. Bergquist has lived in one of the
Sisters’ homes for thirteen years. He says there is no
substitute for their devotion to residents. “This is my
third nursing home. ... There were too many deaths
at the first nursing home. It was better to stay close
to home for the second home but I didn’t like it.” Few
of the nursing home residents can pay for their care,
and the Sisters accept whatever they can afford.
“The Sisters here are dedicated to helping the poor.”
He wants to speak for the people who live there. “I’m
the president of our floor. This is home to me. ... In
the other nursing homes, there was no sense of
mission shown. It was just from an operational
Pursuant to this Court’s Rule 37.3(a), all parties have
received the requisite notice and have consented to the filing of
this amicus brief. Further, pursuant to Rule 37.6, no counsel
for a party authored this brief in whole or in part, nor did such
counsel or party make a monetary contribution to the
preparation or submission of this brief. Only the Pro-Life Legal
Defense Fund, Inc., made such a monetary contribution. All
statements made by amici are on file with counsel for amici
1

curiae.

1

standpoint, it was almost always cold. ... We don’t
want to be just written off. Some of the other places
there seems to be a lack of identification of who you
are. You are just a number.” Life with the Sisters is
the opposite. “They do everything to make us happy.
... I feel I’m part of the family and that’s a great
feeling to have. ... That’s the beauty of the Little
Sisters – they want to make the old people happy
and they are dedicated to doing that. They will keep
you alive ten years longer than anyplace else
because they love you.”
Fidelma Talty Dolan is a licensed nursing
home administrator with over forty years of
experience in other nursing homes. She says, “You
cannot compare them to the Little Sisters’ homes.
They are so devoted to the elderly, they give their
whole lives to them, and that has not been my
experience in the nursing homes I have worked in.”
She chose the Sisters’ home for her 90-year-old
mother, who said, “It’s like heaven on earth.” Ms.
Dolan described the reason: “It was not at all
institutional, it was so cheerful that you would never
think it was a nursing home. The residents are so
happy to be there. ... The residents don’t have to give
up their individuality when they go in there.” She
looks for relief for the Sisters because “they sacrifice
their own lives to care for the elderly. They are so
loving, so giving. ... You can’t be in that home
without being so inspired and you want to help
them.”
Maura Ellen Feenan grew up two blocks from
the Little Sisters’ home in Totowa, NJ. Four
generations of her family have helped the nuns or
received their help. She observes, “Sadly I’ve been in
pathetic nursing homes, even the good ones, where
many residents just stay in their rooms. These are
2

people who have given so much to society but society
is pretty much done with them. The sisters have a
place for them. That’s a beautiful, beautiful thing.”
John J. Fitzgerald found a home for his father
after 24-hour home care became insufficient. His
father was a police lieutenant, retired after 27 years
in the NYPD. As a CPA, he is amazed at the way the
“begging Sisters” collect donations of money, food,
and other items, almost 60% of their operating
budget. His father’s life there “was a wonderful,
loving and memorable experience because of the
Sisters’ work. ... My family and I will forever be
grateful to The Little Sisters of the Poor.” Therefore
he asks for support for the Sisters’ work.
Carol Hassell has lived with the Sisters for
ten years. She describes life there as incomparable.
“In a nutshell I would say this about the Little
Sisters: a little bit of heaven fell from out the sky one
day and landed in my apartment.” When her
children come to see her, the Sisters welcome them
like family. “My children are thrilled that I am here.
When they visit they can stay in a cottage. I haven’t
had a bad day here – I just love it. I feel extremely,
extremely blessed. The Sisters live out their
philosophy in their homes. It’s their way of life that
is unique. ... Everyone is welcome as one family ... It
really is a remarkable place.” The Sisters’ goal is to
fulfill every need and make a real home for
residents. “When I moved here, I didn’t have a whole
lot. Sister Regis, an elderly Sister here, asked if I
had furniture and gave me a bunch of beautiful
furniture like a couch and a comfortable mattress.”
She wants the Sisters to be protected. “The Sisters
are as real as they come. The world would certainly
be a poorer place without them.”
3

Joyce C. Kelly testified that when her fatherin-law was at another nursing home he suffered
“repeated falls which resulted in his being
transported by ambulance to the local emergency
room.” While he was under the Sisters’ care he never
fell at all. The difference between the two places was
“drastic. ... this place was unique … The Sisters and
staff were so creative, always looking at ways to
make the residents happier.” They do not ask for
payment from their poor residents, and to raise
money they “go to local churches and stores and beg
for support.” She asks the Court to protect them
because the HHS mandate “puts their ministry at
risk, but they truly believe that God will protect
them as they stand up for what they believe is the
foundation of their faith.”
Richard F. Kelly needed help to care for his
father, and chose the Little Sisters’ home because
“we witnessed their care, kindness, gentleness, and
respect. ... They treat the residents like family.” He
explains what is unique about the Sisters’ homes:
“It’s not just their dedication, it’s the style and love
in which they do it, the humor, the grace—not only
the sisters but the staff too. There’s no comparison.
My dad loved it.” Since his father’s death, Mr. Kelly
is still part of the community. “Because of who they
are and how they do it, there are a lot of volunteers
to come there. ... It’s the atmosphere the sisters have
created, a special place so people want to help.” He
asks only to continue their work. “The sisters simply
want to be allowed to live their faith.”
Gerry McCue met one of the Little Sisters who
was “begging at our parish. I was overwhelmed at
her description and her invitation to us who are
elderly, poor to speak with them.” His costs were
based entirely on his income, but the Sisters
4

provided for his wants and needs by begging for
donations. Living there was unique because of the
Sisters’ “total devotion to all of us.” Thanks to the
Sisters’ dedication, “there are smiles everywhere.
This is not a place for frowns or long faces. These are
happy people – this is an entirely different
atmosphere than I’ve seen most places in the world.”
He wants to stay in this home. “We live with such
dignity due to their devoted efforts.” If they could not
continue their work, he does not believe he could find
any adequate replacement. “Overall, there is a
different motor inside driving these Little Sisters of
the Poor.”
Joseph Mulholland and Madeleine Diane
Adams are a married couple who needed care for
their parents. They “searched and searched for a
good nursing home. … [T]he care that the Sisters
give is individualized.
There is no sense of
regimentation or scheduling that everyone has to
meet. They focus on the individual – what the
elderly person needs. They try to bring out the best
in them. The Sisters see them as individuals with
individual gifts. The residents feel a part of life at
the home.” They found no nursing home that could
compare to it. “The individualized care was unique.”
The Sisters are motivated by their beliefs in a quiet
way. “The religion is there for you to take part in but
they don’t push it on you at all. They are amazingly
open-minded in that sense. They have a strong focus
on human dignity and they wouldn’t dream of
imposing themselves on someone or forcing someone
to believe. They leave it up to the individual.”
Although their parents have passed away, Ms.
Adams and Mr. Mulholland still make several trips
every week to give back to the community. They are
not alone in this lifelong relationship. “The families
5

stay connected to the home even after loved ones
pass away – you will see them as volunteers,
running craft fairs, etc. The Sisters see it as ‘a way
our family grows.’ We wouldn’t think about not
keeping them as a part of our daily lives.”
Joseph B. Schnirring kept his mother at home
until she needed a higher level of support. He
realized that “we gave her more love than good care,
but the Sisters gave her love and professional care.
They’re working 24/7, 365 days a year, no vacations.
Some of them have been there fifty years. ... They
are unsung heroes, they accept a calling and
dedicate their lives … The service that the Little
Sisters provide is irreplaceable because “[t]he quality
of life is significantly better than other places. They
are devoted to a very tangible mission, to make them
as comfortable as they can in their final years.” He
still visits the home to support the Sisters, and looks
for protection of their right to exercise their religious
beliefs.
Fr. William Spacek needed a compassionate
home for his 90-year-old mother after she had been
neglected and abused at several nursing homes. She
suffers from dementia but thrived under the Sisters’
care. “[H]er face looks so different now. She used to
have a lot of tension and anxiety in her face; now she
seems to feel secure. ... It’s because the Sisters treat
her with respect and care.” She was not expected to
pay any more than she could afford. He sees the
Sisters teaching by example: “By the very fact that
they have opened their home, by their very activity,
they instruct people who think that old people have
no value.” He seeks appreciation for them rather
than punishment.

6

SUMMARY OF THE ARGUMENT
For 150 years, the Little Sisters of the Poor in
the United States have provided an incomparable
loving environment for elderly poor people, many of
whom have nowhere else to go. The Little Sisters’
religious beliefs inspire them to give up their lives
for this work, but they don’t force their religion on
others; they provide this irreplaceable service
regardless of religious affiliation, condition of
dependency, or ability to pay. Now the Little Sisters
are being told by the lower courts that they must
facilitate the provision of free contraceptives to their
employees--in violation of their religiously informed
consciences--or face huge fines that would endanger
their ability to carry out their mission of mercy.
Because
of
their
overwhelmingly
positive
experiences at homes of Little Sisters of the Poor,
amici residents and their families want to support in
the strongest way possible the continuation of the
Little Sisters’ invaluable work.
ARGUMENT
I.

THE
LITTLE
SISTERS’
FAITHFUL
EXERCISE OF THEIR RELIGION HAS
PROVIDED AID AND INSPIRATION TO
THE POOR ELDERLY, REGARDLESS OF
FAITH AFFILIATION, SINCE 1839.

The Little Sisters of the Poor began in the
winter of 1839 in Brittany, France when a woman in
her 40s, now Saint(ed) Jeanne Jugan, met an elderly
blind and partially paralyzed woman and gave up
her bed for her. 2 This act began a tradition that has
lasted for generations as Jugan continued to take in
Paul Milcent, Jeanne Jugan: Humble So as to Love
More, 40 (Darton, Longman & Todd, 2d ed., 2000).
2

7

elderly poor people who had no one to help them.
The English novelist Charles Dickens saw her at
work, writing later that Jugan was “moved by the
gentleness of her heart” to help her first resident.
“Other infirm people earned, by their helplessness, a
claim on her attention,” Dickens recounted. “She
went about begging, when she could not work, that
she might preserve life as long as Nature would
grant it to her infirm charges.” 3
Other women were attracted by Jugan’s
example, and a religious community to help the
elderly sprang up. The Little Sisters of the Poor, as
the congregation became known, grew, and spread to
other places where they found need—including, in
1868, the United States.
From the beginning the Little Sisters have
been about not just what they do but how they do it.
The Little Sisters do not treat the people they care
for as clients, but rather as friends and family. They
see themselves not as proprietors or even caregivers,
but as joyful servants. They seek neither money nor
acclaim. As Dickens noted, “The whole sentiment of
the household is that of a very large and very
amiable family. To feel that they console the last
days of the infirm and aged poor, is all the Little
Sisters get for their hard work.” 4
This spirit of joyful and selfless service to the
aged poor has changed little since Dickens’s time.
Writer and neurologist Oliver Sacks, who jokingly

3 Charles Dickens, The Little Sisters, Household Words,
Feb. 14, 1852 available at Dickens Journals Online,
http://www.djo.org.uk/household-words/volume-iv/.
4

Id.

8

described himself as an “old Jewish atheist,” 5 wrote
just before his death in his 2015 memoir: “[T]he
Little Sisters inspire me, and I love going to their
residences. I have been going to some of them, now,
for more than forty years.” 6
Sacks came to know of the Sisters through his
parents, who were doctors. “I first heard of the Little
Sisters when I was a boy, for both my parents
consulted at their homes in London. … Auntie Len
would always say, ‘If I get a stroke, Oliver, or get
disabled, get me to the Little Sisters: they have the
best care in the world,’” Sacks recalled. 7
As an adult Sacks provided his expertise in
neurology for the Little Sisters. He got to know them
well:
Their homes are about life — living the
fullest, most meaningful life possible
given their residents’ limitations and
needs. Some of the residents have had
strokes, some have dementia or
parkinsonism, some have ‘medical’
conditions (cancer, emphysema, heart
disease, etc.), some are blind, some are
deaf, and others, though in robust
health, have become lonely and isolated
and long for the human warmth and
contact of a community.
Besides medical care, the Little Sisters
provide therapy of every kind — physical therapy,
“I’m an old Jewish Atheist,” Oliver Sacks, Web of
Stories, https://www.webofstories.com/play/oliver.sacks/20.
5

6 Oliver Sacks, On the Move: A Life 225 (Alfred A.
Knopf, 2015).
7

Id. at 224.

9

occupational therapy, speech therapy, music
therapy, and (if need be) psychotherapy and
counseling. In addition to therapy (though no less
therapeutic) are activities of all sorts, activities
which are not invented but real like gardening and
cooking. 8
While Sacks did not share the Little Sisters’
religious beliefs, he understood that the Little
Sisters of the Poor is a Roman Catholic religious
congregation, and that the Sisters are animated by
their Catholic faith to do what they do. “Religion is
central but not mandatory; there is no preachiness,
no evangelism, no religious pressure of any sort,”
Sacks wrote. “Not all the residents are believers,
though there is a great religious devotion among the
Sisters, and it is difficult to imagine such a level of
care without such a deep dedication.” 9 In short, the
Little Sisters’ care for poor residents of their houses
is an exercise of their religion, which also serves
people of all religions and no religion.
II.

THE LITTLE SISTERS PROVIDE A
UNIQUE AND IRREPLACEABLE SERVICE
THAT IS CHERISHED BY RESIDENTS AND
FAMILIES OF RESIDENTS.

Observers of the Little Sisters have recently
come forward to describe their experiences with
these nuns. Several have offered comments as amici
for this brief to aid in understanding the holistic
exercise of religion in the work of the Little Sisters.
They are concerned about what would happen to the
Sisters’ irreplaceable service to the poor aged should
the government succeed in its plan to force the Little
8

Id.

9

Id. at 224-5.

10

Sisters to compromise their beliefs or pay massive
fines. See Gonzales v. Carhart, 550 U.S. 124, 159
(2007) (citing Amici Curiae for experiences of those
affected by decision); Roper v. Simmons, 543 U.S.
551, 569, 578 (2005) (citing several Amici Curiae for
understanding of factors and effects of juvenile death
penalty). Amici are residents of the homes the Little
Sisters run and family members of residents and
former residents.

Amicus John Fitzgerald cared for his father, a
retired police lieutenant, at home round the clock
every day before his father moved to one of the Little
Sisters’ homes. He described their initial visit:
“When you enter a Little Sisters’ residence you stop
at the door because you feel the floor is wet, afraid to
slip, but it’s not. It is washed and polished daily. The
next thing you notice is the fragrance of fresh
flowers, soft lighting, you see religious statues and
feel the warmth of the busy Sisters lovingly doing
their work.”
Amicus Carol Hassell was surprised by the
smell of the Little Sisters home --- or rather, the lack
of smell. “Their homes are absolutely spotless. You
won’t find the odors there like other houses. They
toilet their people every two hours. Other homes
could do that but don’t. Everyone is welcome as one
family.”
III.

THE LITTLE SISTERS’ DEVOTED CARE
FOR POOR RESIDENTS IS AN EXERCISE
OF THEIR RELIGION THAT ENHANCES
THE SERVICES PROVIDED TO THE POOR
AND ELDERLY.

Like members of most other Catholic religious
congregations, the Little Sisters take vows of
11

poverty, chastity, and obedience. But the Little
Sisters also take a special fourth vow: hospitality.
Residents and their family members notice.
When amicus Father William Spacek brought
his mother to the Sisters, they took an immediate,
personal interest in her. “The first thing Sister
Lourdes said to me was, ‘Tell me everything that’s
going on.’ When she moved in, a postulant sewed
name tags into all of her clothes.”

Amici Madeleine Diane Adams and Joseph

Mulholland, a married couple whose aging parents
needed care some years ago, searched nursing homes
for a long time before they settled on the Little
Sisters. What set the Little Sisters apart for them
was how much the Sisters care and how
individualized the care is. Adams and Mulholland
said in a joint statement: “There is no sense of
regimentation or scheduling that everyone has to
meet. They focus on the individual—what the
elderly person needs. They try to bring out the best
in them. The Sisters see them as individuals with
individual gifts. The residents feel a part of life at
the home.”

Amicus Carl W. Bergquist spent time living in
two other nursing homes before he moved to a Little
Sisters’ home. “There were too many deaths at the
first nursing home. It was better to stay close to
home for the second home but I didn’t like it. A
friend told a family member about the Little Sisters.
It didn’t cost anything. In the other nursing homes,
there was no sense of mission shown. It was just
from an operational standpoint, it was almost
always cold. Around here you get to know the people.
… Some of the other places there seems to be a lack

12

of identification of who you are. You are just a
number.”
Mr. Bergquist attributes his current good
spirits not just to the medical care he receives from
the Little Sisters, but also the joy they spread: “Each
floor has a Christmas party. The Little Sisters get us
gifts. They give it a family touch. There’s no reason
to be depressed in a place like this unless you want
to be. They do everything to make us happy. We had
a contest between the nuns and the residents and
the workers—Jeopardy. I feel I’m part of the family
and that’s a great feeling to have. … That’s the
beauty of the Little Sisters—they want to make the
old people happy and they are dedicated to doing
that. … They will keep you alive ten years longer
than anyplace else because they love you.”
The Sisters’ philosophy is to keep families
connected when residents have family. Amicus Carol
Hassell, a resident of a Little Sisters home, said she
does not feel alienated from her family just because
she has moved to a nursing home. “My children are
thrilled that I am here. When they visit they can
stay in a cottage. I haven’t had a bad day here --- I
just love it. I feel extremely, extremely blessed.”

Amicus Fidelma Dolan evaluates a Little

Sisters’ home as an expert. “I’m a licensed nursing
home administrator and I worked in other nursing
homes for over 40 years. You cannot compare them
to the Little Sisters’ homes. They are so devoted to
the elderly, they give their whole lives to them, and
that has not been my experience in the nursing
homes I have worked in,” she said. “So many little
things show their care. Many of the residents are
poor and don’t have anything. They will go and
provide them with clothing that is individually
13

chosen for the person, and they sew name labels into
the clothing. At Christmas they will select an
individual present for each person rather than
everyone getting socks; that has been my experience
in other nursing homes.”
Ms. Dolan got to know the Little Sisters when
her mother went to live with them. “My mother was
90 when she went into their Jeanne Jugan Home.
She lived there for four years and she would say, ‘It’s
like heaven on earth.’ It really is a family.” Amicus
Maura Ellen Feenan described that acceptance:
“These are people who have given so much to society
but society is pretty much done with them. The
sisters have a place for them. That’s a beautiful,
beautiful thing.”
IV.

THE LITTLE SISTERS AUTHENTICALLY
SERVE
EVERY
PERSON
AS
AN
INDIVIDUAL WITHOUT REGARD TO
FAITH, FINANCES, OR FRAILTY.

Many nursing home residents in the United
States complain about feeling not only neglected but
dehumanized. That is not the case for amicus Gerry
McCue, who lives at a Little Sisters’ home. “Dignity
is our hallmark word,” McCue said. We live with
such dignity due to their devoted efforts.”
Many of the residents of Little Sisters homes
can’t offer testimony in this brief because they aren’t
well enough. But they are cherished by the Little
Sisters regardless of their physical or mental
disabilities. The Little Sisters’ level of care has a
noticeable effect even on some residents whose
illnesses are advanced.
Father Spacek described the difference he has
seen in the Sisters’ care and the good it has done:
14

“My mother has dementia. She was neglected and
abused at several nursing homes … [The Sisters]
take their time, they’re concerned, they talk to her.
She used to be neglected for hours. Now if I push the
button they are here within 5 minutes. They got her
to sing a Christmas carol ... She is responding so
well. Because of her glaucoma she couldn’t find food
on her plate; the Sisters taught her how to feed
herself again. People who visit her say that her face
looks so different now. She used to have a lot of
tension and anxiety in her face; now she seems to
feel secure. She used to keep one eye closed all the
time and now it’s usually open. It’s because the
Sisters treat her with respect and care.”
The physical improvement stems in part from
a commitment to service as the Little Sisters live out
their faith to all in the homes. Amicus Richard
Kelly’s late father, Frank Kelly, moved to a Little
Sisters’ home after being treated at another nursing
home for 10 years. At the other place Mr. Kelly kept
falling and had to be taken to a hospital repeatedly.
The problem was that Mr. Kelly suffered from
dizziness but kept wanting to get up out of his
wheelchair and repeatedly fell. When family
members asked the staff to watch him more closely,
they didn’t seem to care.
Things changed when Mr. Kelly moved to the
Little Sisters’ home, as his son recounted:
“Whenever he got up they rushed in; they were so
careful, so patient with him and he never fell,
never.” Richard’s wife, amicus Joyce Kelly, said the
improvement in Mr. Kelly’s outlook started
immediately: “When they asked him what he
thought about the home, he said, ‘Sister, when
Richard wheeled me into the building I thought I
died and went to heaven.’”
15

It wasn’t just the medical care. As Joyce Kelly
recalled: “My father-in-law loved dogs and one of the
nurses brought in her two little dogs every week
which made him very happy. Frank loved to sing and
they would bring him to the rooms of people who
could not always get around and have him sing to
them, which was a catharsis. He would also sing to
every woman who came into his room, ‘You must
have been a beautiful baby,’ with gusto. There was
one woman who wouldn’t come out of her room so
they brought him to sing to her and it really cheered
her up, as well as Frank.”
When Mr. Kelly was agitated, the sisters
would calm him, his son recalled: “My father would
have dreams that I was dead and they would call me
up to reassure him rather than just let him sit in his
misery. … If anyone was worried about him, whether
it was one of the sisters or a social worker, they
would call me to let me know. When dad was having
flashbacks to his military days, they got him
anything military, like a blanket with a flag. He was
always cold because of his poor circulation, so he
would have up to four blankets. They made sure he
had on warm clothes. They would listen to his stories
about his wife over and over, even when he was
confused. For his 96th and last birthday there they
opened the ice cream parlor to us and gave us all the
food for 15-20 people, and there was no charge. They
made sure he had chocolate ice cream twice a day.
They treat the residents like family, especially
important when there is no family that visits. From
the day my father went in till his last days on earth,
it was very comforting to me that he was there.”

16

V.

THE LITTLE SISTERS OFFER A JOYFUL,
SUPPORTIVE,
AND
PEACEFUL
ENVIRONMENT, FROM THE DETAILS OF
DAILY LIVING TO THE FINAL MOMENTS
OF LIFE.

One of the things that impressed Mr. Kelly’s
son was how happy the sisters seemed and how they
tried to spread that happiness to others. “It’s not just
their dedication” he said, “it’s the style and love in
which they do it, the humor, the grace --- not only
the Sisters but the staff too. … Watching the dining
room staff when someone had difficulty eating was
just incredible: one of the nuns or staff would sit
with them and feed them. One nun would be on her
knees to feed a woman because the bed was too low
to do it from a chair. On each visit we witnessed
their care, kindness, gentleness, and respect. You
saw the respect in the way the place was
maintained. The Sisters simply want to live their
faith and they do.”
For some of their residents, the Little Sisters
cannot help improve their physical health. But they
can still be there for them. The Little Sisters
emphasize offering spiritual comfort for residents in
their last hours.
As resident Carol Hassell said, “The Sisters
live out their philosophy in their homes. It’s their
way of life that is unique. It’s the way of life of a nun
that makes a difference. It’s totally different. It’s the
fourth vow of hospitality. They do it better than
anyone. The ultimate of the Little Sisters is to sit
with the dying. They sit with them around the clock.
No one dies alone here. Those night hours like 1:002:00 or 2:00-4:00, the sisters are with them.”

17

Resident Gerry McCue has seen the Little
Sisters tend to the dying, too. “Recently, a woman
died and the Sisters were there at the hospital all
night, praying beside her bed. I pray for that, that
type of help on my deathbed. That they would be
there encouraging me not to fear, to look into the
presence of God.”
The Sisters do not do their work alone. They
have staff employees who assist them. Family
members note how careful the Sisters are in their
staff selections.
Joyce Kelly, daughter-in-law of former
resident Frank Kelly, was impressed by the
staff. “Whenever we watched the staff interact with
Mr. Kelly you could see the respect, kindness and
dedicated concern they showed. Watching future
interactions with the staff only convinced us that
this place was unique, with well trained staff who
really liked working alongside with the Little
Sisters.”
Mrs. Kelly noted that the Little Sisters
inspired loyalty and even devotion among their lay
employees. “One director on Mr. Kelly’s floor was
there because she knew the quality care the clients
received and that was her professional expectation
for all on her caseload. Prior to coming to this facility
she was the director of nursing at a local hospital,
making much more money. But she said the money
was only part of the job and she wanted to know that
where she worked she knew her philosophy for
patient care was what was being offered. She also
said the staff at this facility wanted to come to work
every day and loved their jobs.”

18

VI.

THE LITTLE SISTERS FAITHFULLY
SERVE PEOPLE OF ALL RELIGIONS.

Madeleine Diane Adams and Joseph
Mulholland said the Little Sisters do not hide their
Catholic identity but they don’t force it on others,
either: The religion is there for you to take part in
but they don’t push it on you at all. They are
amazingly open-minded in that sense. They have a
strong focus on human dignity and they wouldn’t
dream of imposing themselves on someone or forcing
someone to believe. They leave it up to the
individual.”
VII.

THE LITTLE SISTERS SERVE PEOPLE
WITHOUT REGARD TO THEIR ABILITY TO
PAY.

Most of the residents are too poor to pay for
their care, yet the Sisters provide everything
possible to make them comfortable, far above and
beyond the basic care at any nursing home. So how
do the Little Sisters pay the cost? By begging.
Amicus John Fitzgerald relates: “[T]he Little Sisters
travel from church to church in the diocese, briefly
speak of their work, then stand at the back of the
church after Mass with collection baskets. The
Sisters also raffle off holiday themed baskets during
the course of the year. The baskets and other raffled
items are donated, as well as the many varied items
the small gift shop offers.” Their begging not only
provides essential financial assistance to allow them
to continue their high-quality care, but provides an
opportunity to spread the message about their
homes of hope to the elderly poor. Mr. McCue
recounts that he first learned about the Little Sisters
of the Poor when a Sister was begging at his parish.
He said he “was overwhelmed at her description and
19

her invitation to us who are elderly, poor, to speak
with them.” Since accepting that invitation and
coming to live at a Little Sisters’ home, he has been
amazed at the “total devotion” the Sisters have
shown to him and the other residents. He describes
the ambience of the home:
an entirely different atmosphere than
I’ve seen most places in the world.
These people, these human beings, have
had a calling to doing the work of the
gospel, and something that has
integrity and acts of generosity. They
are following the Bible call from Jesus
himself. Such a startling thing when
you see that attitude. You think, how
long can this last? But it does. Overall,
there is a different motor inside driving
these Little Sisters of the Poor.
CONCLUSION
The same religious spirit that animates the
Little Sisters’ service to poor elderly people also
animates their desire not to arrange coverage for
artificial contraception to their employees. The Little
Sisters believe that artificial contraception is
immoral. The Little Sisters also believe that it is
immoral to do a bad thing in order to do a good
thing. Thus, they can’t justify facilitating artificial
contraception in order to continue serving the poor
people who need their help. That means that the
homes that the Little Sisters operate, which so many
residents and family members find indispensable,
are now in jeopardy.
Under the system previously envisioned by
the executive branch of the federal government
20

under the Obama administration, which the state
plaintiffs are attempting to enforce, the Little Sisters
would face a choice: violate your conscience and
continue serving the poor; stick to your conscience
and stay open while paying huge, potentially ruinous
fines; or close your doors.
The Little Sisters do not intend to violate
their consciences. They do not have unlimited funds
to pay massive fines to Big Brother. Their outlook,
therefore, is bleak.
This Court has the opportunity in this case to
see that, at least this once, good deeds go
unpunished. The decision of the lower courts should
be reversed.
Respectfully submitted,
Dwight G. Duncan
Counsel of Record for Amici Curiae
Colbe Mazzarella
333 Faunce Corner Road
North Dartmouth, MA 02747-1252
(508) 985-1124
dduncan@umassd.edu
Dated: October 28, 2019

21

